                                                                  Issue Date
                                                                           March 5, 2007
                                                                  Audit Report Number
                                                                               2007-DE-1004




TO:        Ann Roman, Director, Denver Office of Public Housing, 8APH

           //signed//
FROM:      Ronald J. Hosking, Regional Inspector General for Audit, 8AGA


SUBJECT: The Cheyenne Housing Authority in Cheyenne, Wyoming, Improperly Awarded
           Its Administration and Management Contract


                                   HIGHLIGHTS

 What We Audited and Why

            We reviewed the Cheyenne Housing Authority’s (Authority) administration and
            management contract with Housing Operations and Management, Incorporated
            (contractor), to determine whether the Authority awarded the contract in accordance
            with federal procurement requirements. We performed the audit because we
            discovered that the contractor’s owner/president was also the executive director of
            the Authority.


 What We Found


            The Authority did not follow federal procurement requirements and its own
            procurement policy when it awarded its administration and management contract to
            the contractor. Members of the Authority’s board of commissioners (board) did not
            fully understand their duties and responsibilities related to the procurement process
            for the award of this contract. Without following federal procurement requirements,
            the Authority has no assurance that it received the best price for the services
            provided under the terms of the contract.
What We Recommend


           We recommend that HUD ensure that the board takes all actions necessary to
           provide its members with a full understanding of their duties and responsibilities
           related to the federal procurement process and require the Authority to amend its
           existing administration and management contract to include all required contract
           provisions.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We provided the discussion draft of the audit report to the Authority on February
           12, 2007, and held an exit conference on February 22, 2007. The Authority
           provided general written comments on February 27, 2007 indicating that it will
           work with HUD to implement the recommendations.

           The complete text of the auditee’s response can be found in appendix A of this
           report.




                                            2
                           TABLE OF CONTENTS

Background and Objectives                                                  4

Results of Audit
      Finding 1: The Authority Improperly Awarded Its Administration and   5
                  Management Contract

Scope and Methodology                                                      7

Internal Controls                                                          8

Appendix
   Auditee Comments                                                        9




                                           3
                 BACKGROUND AND OBJECTIVES

In 1971, a Wyoming statute created the Cheyenne Housing Authority (Authority) as a
political subdivision of the state. A board of commissioners (board) appointed by the mayor
of the city of Cheyenne, subject to approval by the city council, governs the Authority. The
Authority provides a broad range of services to eligible families and individuals, which
include low-cost housing, meals, transportation, and volunteer services.

Since 1979, an administration and management contractor, Housing and Operations
Management, Incorporated (contractor), has managed the day-to-day operations for the
Authority through consecutive contract agreements. The contractor administers the
Authority’s programs, ensuring compliance with federal and state regulations and Authority
policies, along with any changes to those regulations and policies.

The contractor has been in existence since 1979. As part of the contract, the contractor’s
current president/owner also serves as the executive director of the Authority.

The objective of our audit was to determine whether the Authority awarded its administration
and management contract to the contractor in accordance with federal procurement
requirements.




                                            4
                                RESULTS OF AUDIT

Finding 1: The Authority Improperly Awarded Its Administration and
           Management Contract
The Authority did not follow federal procurement requirements and its own procurement policy
when it awarded its administration and management contract to Housing and Operations
Management, Incorporated (contractor). The members of the Authority’s board of
commissioners (board) did not fully understand their duties and responsibilities related to the
procurement process for the award of this contract. Without following federal procurement
requirements, the Authority has no assurance that it received the best price for the services
provided under the terms of the contract.



 The Authority Did Not Follow
 Federal Procurement
 Requirements


              Since 1979, the Authority has improperly awarded several administration and
              management contracts to provide the day-to-day administration of its operations.
              The Authority awarded the contracts without following federal procurement
              requirements and its own procurement policy. Before advertising the request for
              proposal, the Authority did not perform an independent cost estimate. Additionally,
              after receiving the proposals, the Authority did not perform a cost analysis.

              Also, the Authority did not include all clauses required by the Office of Federal
              Procurement Policy in its administration and management contract. For example,
              every contract must include all provisions required by 24 CFR [Code of Federal
              Regulations] 85.36(i) (i.e., compliance with the Copeland “Anti-Kickback” Act).

 The Board Lacked
 Understanding of Procurement
 Requirements


              The board did not fully understand its duties and responsibilities related to the
              procurement process for the award of the administration and management
              contracts. The same contractor has been awarded this contract since 1979.
              Therefore, each incoming board appeared to follow the practice of the prior board
              in hiring the same contractor since the contractor’s performance was adequate.
              The current board needs training in how to comply with federal procurement
              requirements.



                                               5
 The Authority Has No
 Assurance That It Is Receiving
 the Best Price for the Services
 Provided

             Without performing the required independent cost estimates and cost analysis, the
             Authority did not have assurance that it received the best price for the services
             provided. The independent cost estimate gives the Authority a fair market value
             basis to evaluate incoming proposals. The cost analysis ensures that the proposed
             price is reasonable for the services provided under the contract. A cost analysis on
             bids or proposals received is required to verify the proposed cost data and to
             evaluate specific elements of the costs. In this case, the Authority had no way of
             identifying the fair price concerning labor, indirect costs, and profits proposed. It
             also could not determine whether it paid for questionable or unallowable costs or
             inflated items.

Recommendations



             We recommend that the director, Denver Office of Public Housing,
                    1A. Ensure that the Authority’s board takes all actions necessary to
                        provide its members with a full understanding of their duties and
                        responsibilities related to the federal procurement process.

                    1B. Require the Authority to amend its existing administration and
                        management contract to include all required contract provisions.




                                                6
                        SCOPE AND METHODOLOGY

To accomplish our audit objective, we obtained and became familiar with the applicable
procurement requirements and regulations. We also

          1. Interviewed Denver Office of Public Housing staff and reviewed their project
              files;
          2. Interviewed Housing and Operations Management, Incorporated (contractor) staff;
          3. Performed site work at the Cheyenne Housing Authority and obtained and
              reviewed files, audited financial statements, and financial records for the
              Authority;
          4. Obtained and reviewed the Authority’s contract agreements with the contractor
              and related board approvals;
          5. Interviewed Authority board members and discussed the audit results with them;
          6. Interviewed the Authority’s attorney; and
          7. Discussed the audit results with the contractor’s president/owner, who also serves
              as the executive director of the Authority.

Our audit period covered October 1, 2003, through October 31, 2006.

We performed the audit work from October to December 2006. We conducted the audit in
accordance with generally accepted government auditing standards.




                                              7
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


              We determined the following internal controls were relevant to our audit objectives:

              •       The Authority’s policies and procedures for procurement activities.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives


 Significant Weaknesses


              We did not identify any significant weaknesses.




                                                8
                           APPENDIX


                  AUDITEE COMMENTS
The Cheyenne housing authority board provided us with the following written
comments in an email on February 27, 2007.

"The Board of Commissioners of the Cheyenne Housing Authority has no response to
the finding other than that the Board looks forward to working with HUD to ensure
that the future procurement of the management contract conforms with HUD
regulations and that the recommendations are implemented."




                                   9
